TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Mainframe Databases Reviewed Met
                Security Requirements; However, Automated
                    Security Scans Were Not Performed



                                      September 30, 2011

                              Reference Number: 2011-20-099




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


THE MAINFRAME DATABASES                               standards and were effectively implemented.
REVIEWED MET SECURITY                                 However, required automated security
REQUIREMENTS; HOWEVER,                                configuration scans of mainframe databases
AUTOMATED SECURITY SCANS WERE                         were not conducted. The audit also identified
                                                      that the IBM Guardium software application
NOT PERFORMED
                                                      purchased in July 2010 for vulnerability scans on
                                                      databases had not been fully implemented. In
Highlights                                            June 2011, the IRS received an invoice for
                                                      approximately $700,000 to renew the annual
                                                      software application license. This invoice was
Final Report issued on                                paid in order to continue deployment and avoid
September 30, 2011                                    penalties for a lapse in maintenance; however,
                                                      the application had not been fully implemented,
Highlights of Reference Number: 2011-20-099           resulting in an inefficient use of resources.
to the Internal Revenue Service Chief
Technology Officer.                                   WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS                                   TIGTA recommended that the Chief Technology
                                                      Officer implement automated security
Internal Revenue Service (IRS) mainframe              configuration scanning on mainframe databases,
computers support applications associated with        ensure the IBM Guardium software application is
processing, tracking, and storing tax return          fully implemented, and ensure system
information. Two manufacturers of mainframe           requirements are identified and agreed upon by
computers, International Business Machines            all affected Modernization and Information
Corporation (IBM) and Unisys Corporation,             Technology Services organizations prior to
provide the foundation for the IRS computer           purchasing an enterprise-wide software
systems. TIGTA tested the security                    application.
configurations of two applications processed
with DB2 databases residing on IBM                    The IRS agreed with all of TIGTA’s
mainframes and found it to be effective;              recommendations. The IRS plans to implement
however, automated security scans of the 32           automated security configuration scanning on
IBM DB2 database applications were not                mainframe databases and coordinate with
performed. By not performing monthly                  stakeholders to fully implement the IBM
automated database scans, sensitive                   Guardium software application. Vendor
information may not be secure.                        Contract Management plans to ensure that all
                                                      appropriate information technology stakeholders
WHY TIGTA DID THE AUDIT                               involved in the acquisition of enterprise software
                                                      applications have been effectively engaged in
In Fiscal Year 2009, the IRS processed about
                                                      the articulation of requirements for new
144 million individual income tax returns and
                                                      enterprise-wide software applications.
about 2.5 million corporate income tax returns.
This audit is included in our Fiscal Year 2011        The IRS stated that they did not concur with the
Annual Audit Plan and addresses the major             outcome measure of $700,000, as the invoice
management challenge of Modernization. Our            was paid in order to continue deployment and
overall objective was to determine whether            avoid penalties for a lapse in maintenance.
adequate security controls were established for       However, TIGTA maintains that the inefficient
the IBM DB2 databases running on the IBM              use of resources is due to the delayed
z/OS operating system.                                deployment that resulted from the lack of proper
                                                      planning and coordination between the
WHAT TIGTA FOUND                                      Modernization and Information Technology
Security policies and configuration settings for      Services business units prior to the purchase of
the two IBM DB2 databases reviewed were in            the application.
compliance with Government and industry
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 30, 2011


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – The Mainframe Databases Reviewed Met Security
                                Requirements; However, Automated Security Scans Were Not
                                Performed (Audit # 201120021)

 This report presents the results of our review of the security controls established for the
 databases residing on the Internal Revenue Service (IRS) mainframe computers. The overall
 objective of this review was to determine whether adequate security controls had been
 established for the International Business Machines Corporation (IBM) DB2 databases running
 on the IBM z/OS operating system. This audit is included in our Fiscal Year 2011 Annual Audit
 Plan1 and addresses the major management challenge of Modernization.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or Alan Duncan,
 Assistant Inspector General for Audit (Security and Information Technology Services), at
 (202) 622-5894.




 1
     This audit was initially included in Mainframe Computer Security and Processing (Audit #201120015).
                                         The Mainframe Databases Reviewed
                                        Met Security Requirements; However,
                                    Automated Security Scans Were Not Performed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Security Policies and Configuration Settings Were in Compliance
          With Government and Industry Standards and Were Effectively
          Implemented for the Two Mainframe DB2 Databases Reviewed ................ Page 3
          Automated Security Configuration Scans of the Mainframe
          Databases Were Not Conducted ................................................................... Page 4
                    Recommendation 1:.......................................................... Page 4

          Delayed Implementation of a Software Application to Scan
          Databases Resulted in the Inefficient Use of Resources ............................... Page 5
                    Recommendations 2 and 3: ................................................ Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 9
          Appendix III – Report Distribution List ....................................................... Page 10
          Appendix IV – Outcome Measure ................................................................ Page 11
          Appendix V – Glossary of Terms ................................................................. Page 12
          Appendix VI – Management’s Response to the Draft Report ...................... Page 15
           The Mainframe Databases Reviewed
          Met Security Requirements; However,
      Automated Security Scans Were Not Performed




              Abbreviations

IBM     International Business Machines Corporation
IRS     Internal Revenue Service
                                  The Mainframe Databases Reviewed
                                 Met Security Requirements; However,
                             Automated Security Scans Were Not Performed




                                          Background

The Internal Revenue Service (IRS) relies on a complex environment of computer systems to
accomplish its mission. Two manufacturers of mainframe computers, International Business
Machines Corporation (IBM) and Unisys Corporation, provide the foundation for its computer
systems, which processed about 144 million individual income tax returns and about 2.5 million
corporate income tax returns filed in Fiscal Year 2009. These mainframes work with other
non-mainframe hardware platforms supplied by companies such as Aspect Computer
Corporation, Hewlett Packard Company, Dell Inc., and Sun Microsystems (currently named
Oracle America, Inc.).
IRS mainframe computers support applications associated with processing, tracking, and storing
tax return information such as the Business Return Transaction File, the Customer Account Data
Engine – Individual, and the Business Master File On-Line Processing. Other applications
include disparate and unrelated services such as the Currency and Banking Retrieval System
used for monitoring monetary transactions exceeding $10,000, the Personal Identity Verification
Background Investigation Process used for tracking contractors, and the Statistics of Income
Distributed Processing System that provides mandatory reports to Congress on IRS activities.
Our last audit report issued on IBM mainframe security was in 20021 and made two
recommendations. The report noted that the IRS was not using a system-software monitoring
tool to provide periodic reviews of software which would enable systems programming and
security personnel to more efficiently identify system software issues and focus their efforts on
resolving those issues. The resultant recommendation was that the IRS needed to evaluate
automated tools and establish procedures for their use. The second recommendation was made
to timely develop and update mainframe computer access control standards, such as law
enforcement manuals and access control matrices, to ensure that progress is made and that these
standards are tracked by the Modernization and Information Technology Services (formerly
named Modernization, Information Technology, and Security) organization.
During the ensuing years, changes were made to the mainframe environment, including the
consolidation of computer processing into one Enterprise Computing Center with three physical
locations (Detroit, Michigan; Memphis, Tennessee; and Martinsburg, West Virginia);
modifications were made to IRS systems to incorporate income tax law changes; and aging
hardware was replaced with technologically advanced equipment.



1
 System-Level Controls for the Internal Revenue Service’s Mainframe Computers Are Generally Adequate;
However, Additional Actions Are Needed (Reference Number 2002-20-168, dated September 4, 2002).
                                                                                                        Page 1
                              The Mainframe Databases Reviewed
                             Met Security Requirements; However,
                         Automated Security Scans Were Not Performed



The IBM DB2 database system is used in 32 different applications of which 28 are on the IBM
z/OS mainframe. Because our review relied on manual analysis of the IBM mainframe security
and the DB2 database implementation, the scope of the review was limited to two DB2 database
applications on the mainframe. Both applications were owned by the Wage and Investment
Division.
This review was performed at the Modernization and Information Technology Services
Enterprise Operations organization’s offices in New Carrollton, Maryland, and at the Enterprise
Computing Center in Martinsburg, West Virginia, during the period November 2010 through
July 2011. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on the audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                         Page 2
                                     The Mainframe Databases Reviewed
                                    Met Security Requirements; However,
                                Automated Security Scans Were Not Performed




                                       Results of Review

Security Policies and Configuration Settings Were in Compliance With
Government and Industry Standards and Were Effectively
Implemented for the Two Mainframe DB2 Databases Reviewed
The Internal Revenue Manual provides the IRS’s standards and policies for the IBM mainframe
z/OS operating system, the Resource Access Control Facility,2 and the DB2 database. Our
review determined the IBM mainframe and DB2 database standards and policies are consistent
with guidance provided by the IBM Corporation, the Defense Information Systems Agency, the
Department of the Treasury, the Center for Internet Security, and the National Institute of
Standards and Technology.
The IRS developed 32 applications that use the IBM DB2 database. We reviewed two
applications (the Electronic Tax Administration Marketing Database and the Tax Return
Database) owned by the Wage and Investment Division that share resources on the IBM
mainframe to verify that the implementation of these applications met IRS standards. Our
analysis of system files and system-generated reports verified that both applications met the IRS
configuration and security standards for the IBM z/OS operating system and the DB2 database.
Following are some examples of the settings that were verified:
      •   Audit logging settings were appropriate.
      •   Access controls met the IRS standards of least privilege and separation of duties.
      •   Resource Access Control Facility security controls met security configuration guidelines.
      •   Mainframe subsystems were properly separated by function (i.e., test, maintenance, and
          operations).
      •   Daily mainframe operating system level audit reports were created.
The Internal Revenue Manual also requires that the Chief Information Security Officer manage,
maintain, and track agency Plans of Actions and Milestones for information technology security
weaknesses. We reviewed the Plans of Actions and Milestones for Fiscal Years 2009, 2010, and
2011 using the Trusted Agent Federal Information Security Management Act repository for the
two applications reviewed. The Plans of Actions and Milestones were entered into the system in
a timely manner and resolved in a reasonable length of time.


2
    See Appendix V for a glossary of terms.
                                                                                               Page 3
                               The Mainframe Databases Reviewed
                              Met Security Requirements; However,
                          Automated Security Scans Were Not Performed



Automated Security Configuration Scans of the Mainframe Databases
Were Not Conducted
As of April 1, 2010, the Internal Revenue Manual requires monthly automated security
configuration scans of all operating and database systems. The IRS performs these scans by
using a specialized policy checker program for each of the three major platforms in use within
the IRS environment: Microsoft Windows, UNIX, and mainframes.
The monthly mainframe policy checker reports, for the period December 2010 through
February 2011, indicated the IBM z/OS mainframes in our sample were 100 percent compliant
with IRS mainframe operating system policies. However, the mainframe policy checker does
not perform database testing during the automated security configuration scans. Although
mainframe database testing is not performed, our review of the two applications determined the
database controls were compliant with the IRS configuration policies.
In the Modernization and Information Technology Services organization’s Cybersecurity
Operations: Technical Roadmap, dated August 2007, the IRS stated:
       By exploiting un-patched and un-remediated vulnerabilities in our databases, disgruntled
       insiders or malicious outsiders may gain unauthorized access to our most sensitive
       information. Database vulnerabilities exist for several reasons including technological
       weaknesses, poor security-control implementation, lack of training, and absences of
       effective oversight. Routine quarterly scans to detect and correct database
       vulnerabilities and misconfigurations are essential to ensuring the right degree of
       security diligence is being applied to IRS databases.
Automated security configuration scans of mainframe databases are not being performed because
the IRS has not identified and implemented a tool to perform those scans. By not performing
regular and complete monthly automated database scans that check key settings on all
applications, sensitive information may not be secure and the IRS has not met its goal of
ensuring security diligence is applied to all IRS databases as presented above in the technical
roadmap. Additionally, these scans would proactively identify insecure database settings among
the remaining DB2 applications that were not tested during our review.

Recommendation
Recommendation 1: The Chief Technology Officer should implement automated security
configuration scanning on mainframe databases.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       implement automated security configuration scanning on mainframe databases.



                                                                                          Page 4
                                    The Mainframe Databases Reviewed
                                   Met Security Requirements; However,
                               Automated Security Scans Were Not Performed



Delayed Implementation of a Software Application to Scan Databases
Resulted in the Inefficient Use of Resources
Because the IRS does not conduct automated security configuration scans of its mainframe
databases, we attempted to identify other testing mechanisms performed to mitigate this issue
and identified an issue with the implementation of a database scanning software application. In
July 2010, the Cybersecurity organization purchased the IBM Guardium software application to
perform automated vulnerability scans of its databases. The enterprise-wide software license
covering 3,000 processors and the hardware needed to perform automated vulnerability scans
cost $3.3 million.
The IRS originally anticipated implementation by December 2010. However, by July 2011, the
IBM Guardium software application still had not been fully implemented. While automated
vulnerability scans could not be performed enterprise-wide, the IRS ran the software manually to
perform tests on databases one at a time. The first of these scans was performed in August 2010
on the Tax Professional Preparer Tax Identification Number System database. In addition, in
July 2011, the IRS performed an automated test scan of the Customer Account Data Engine 2
database.
The IRS is using its Enterprise Life Cycle systems development methodology to implement the
IBM Guardium software application. As of July 2011, the implementation was in the system
development phase and was waiting for the Enterprise Architecture organization’s approval.
Once approval is obtained, the IRS will continue toward completion of the Enterprise Life Cycle
process. The IRS could not provide an estimated implementation date for the software
application.
One key item that also remains to be completed is for the IRS to set up accounts and permissions
on its multiple systems so the IBM Guardium software application could perform credentialed
scans of the remaining databases. According to IRS management, the IBM Guardium software
application has not been implemented enterprise-wide because of other higher priorities and the
lack of support needed from several organizations.
The Clinger-Cohen Act of 19963 requires agencies to use a disciplined capital planning and
investment control process to maximize the value of information technology investments and
manage the acquisition risk. In June 2011, the IRS received an invoice for approximately
$700,000 to renew the annual IBM Guardium software application licenses. This invoice was
paid in order to continue deployment and avoid penalties for a lapse in maintenance; however,
the application had not been fully implemented resulting in an inefficient use of resources.


3
 Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                             Page 5
                              The Mainframe Databases Reviewed
                             Met Security Requirements; However,
                         Automated Security Scans Were Not Performed



Recommendations
Recommendation 2: The Chief Technology Officer should ensure the IBM Guardium
software application is fully implemented.
       Management’s Response: The IRS is coordinating with stakeholders to fully
       implement the IBM Guardium software application. This includes vulnerability scan
       testing of the various database management system platforms, account creation process,
       mitigation strategy for identified vulnerabilities, identifying appropriate database owners
       and system administrators across the enterprise, and getting database administrators in all
       business units to create Guardium user accounts on their databases.
       Office of Audit Comment: The IRS does not concur with our assertion that the
       renewal of the IBM Guardium software application licenses was an inefficient use of
       resources. The IRS stated that the invoice was paid in order to continue deployment and
       avoid penalties for a lapse in maintenance. In response to our prior recommendations, the
       IRS stated that they implemented use of DbProtect software to perform some of the
       required scanning functionality. DbProtect was the best available tool on the market at
       the time and met the IRS’s immediate needs for a database scanning capability. As a
       result of on-going costs of DbProtect software and expanded business requirements, the
       IRS looked at other tools that could provide the scanning functionality. The IRS stated
       that they conducted a thorough analysis of available tools and made the decision to go
       with IBM Guardium. This analysis, which was shared with us, showed that the change to
       the new tool would save the taxpayers in the total cost of ownership compared to the total
       cost of ownership for DbProtect.
       We maintain that the inefficient use of resources is not due to the selection of the IBM
       Guardium software application, but was caused instead by the delayed deployment that
       resulted from the lack of proper planning and coordination between the Modernization
       and Information Technology Services business units prior to the purchase of the
       application. These issues caused the deployment to be delayed until after the licenses
       needed to be renewed.
Recommendation 3: The Chief Technology Officer should ensure system requirements are
identified and agreed upon by all affected Modernization and Information Technology Services
organizations prior to purchasing an enterprise-wide software application.
       Management’s Response: The IRS agreed with this recommendation. Vendor
       Contract Management will ensure that all appropriate information technology
       stakeholders involved in the acquisition of enterprise software applications have been
       effectively engaged in the articulation of requirements for new enterprise-wide software
       applications.


                                                                                           Page 6
                                     The Mainframe Databases Reviewed
                                    Met Security Requirements; However,
                                Automated Security Scans Were Not Performed



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether adequate security controls had been established
for the IBM DB2 databases running on the IBM z/OS operating system. The scope of this
review was limited to the IBM DB2 database and only those operating systems and Resource
Access Control Facility1 functions directly related to the database. To accomplish our objective,
we:
I.         Determined if the IRS established adequate security policies for the IBM DB2 databases.
           A. Compared the IRS mainframe and IBM DB2 database policies and configuration
              guides to those published by the Department of the Treasury, the National Institute of
              Standards and Technology, and the Defense Information Systems Agency.
           B. Compared the IRS mainframe and IBM DB2 database policies and configuration
              guides to those published by the Center for Internet Security and IBM.
II.        Determined if the IBM DB2 database programs, objects, and files were adequately
           protected and that adequate user access controls were in place.
           A. Judgmentally selected two IBM DB2 production databases for review. The IRS has
              32 IBM DB2 databases of which 28 were using the IBM z/OS operating system.
              Because automated scanning software had not been implemented, a manual review
              was performed. To limit the scope of the manual review, two Sensitive But
              Unclassified applications were selected that use the same subsystem (or logical
              partition) and were owned by the Wage and Investment Division. Both applications
              also shared the same installation of the security software, Resource Access Control
              Facility. We believe these two applications were typical of IRS processing of
              taxpayer data. They are the:
               •    Electronic Tax Administration Marketing Database.
               •    Tax Return Database.
           B. Identified where the selected IBM DB2 subsystem resides on the mainframe.
           C. Determined the IBM DB2 database options that were set.
           D. Evaluated the controls over the connections to the IBM DB2 subsystem.


1
    See Appendix V for a glossary of terms.
                                                                                             Page 7
                               The Mainframe Databases Reviewed
                              Met Security Requirements; However,
                          Automated Security Scans Were Not Performed



       E. Verified that the IBM DB2 datasets are adequately protected.
       F. Evaluated how user identifications are assigned.
       G. Identified who can access tables for the selected subsystem.
       H. Identified who can grant access permissions to other users.
       I. Identified user privileges.
       J. Checked to ensure that access permissions adequately protected the IBM DB2
          database program files and audit logs.
III.   Determined the effectiveness of security testing conducted on the IBM mainframe and
       the IBM DB2 databases to identify vulnerabilities and the remediation actions taken.
       A. Reviewed policy checker reports for December 2010 through February 2011.
       B. Reviewed the results of vulnerability or security testing performed December 2010
          through February 2011.
       C. Verified that the mainframe operating system and the IBM DB2 database application
          had all relevant security patches installed.
       D. Discussed what remediation or corrective actions were taken to address problems
          identified by IRS testing.
       E. Verified that outstanding problems were timely added to the appropriate Plan of
          Actions and Milestones reports.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Cybersecurity and Enterprise
Operations organizations’ policies and procedures for establishing and monitoring IBM
mainframe DB2 database security. We evaluated the controls by interviewing management, and
reviewing policies and procedures and relevant supporting documentation. We tested the
adequacy of DB2 database security by examining DB2 configurations for two IBM mainframe
applications.




                                                                                        Page 8
                              The Mainframe Databases Reviewed
                             Met Security Requirements; However,
                         Automated Security Scans Were Not Performed



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
Larry Reimer, Information Technology Audit Manager
Richard Borst, Senior Auditor
Stasha Smith, Senior Auditor
Elton Jewell, Information Technology Specialist
Monique Queen, Information Technology Specialist




                                                                                      Page 9
                             The Mainframe Databases Reviewed
                            Met Security Requirements; However,
                        Automated Security Scans Were Not Performed



                                                                       Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Director, Enterprise Computing Centers OS:CTO:EO:EC
Director, Security Risk Management OS:CTO:C:SRM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                             Page 10
                               The Mainframe Databases Reviewed
                              Met Security Requirements; However,
                          Automated Security Scans Were Not Performed



                                                                                Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Actual; $702,560 (see page 5).

Methodology Used to Measure the Reported Benefit:
In July 2010, the Cybersecurity organization purchased the IBM Guardium application for
$3.3 million, including hardware and an enterprise-wide software license for a 1-year period
beginning July 30, 2010. The enterprise-wide software license covered the database servers
within the IRS architecture regardless of the number of servers actually scanned.
The application was purchased to perform automated vulnerability scans on IRS databases.
However, as of July 2011, the IBM Guardium application had not been fully implemented. In
June 2011, the IRS received an invoice for approximately $700,000 to renew the Guardium
application license. This invoice was paid in order to continue deployment and avoid penalties
for a lapse in maintenance. While the IRS used the software application several times to scan
databases, it did not utilize the automated scanning functionality that had been purchased.




                                                                                         Page 11
                             The Mainframe Databases Reviewed
                            Met Security Requirements; However,
                        Automated Security Scans Were Not Performed



                                                                                 Appendix V

                                Glossary of Terms

              Term                                         Definition
Application                      A software program that performs a specific function directly
                                 for a user and can be executed without access to system
                                 control, monitoring, or administrative privileges.
Business Master File On-Line     Is used primarily to display tax account information on
Processing                       business taxpayers.
Business Return Transaction      These programs receive business tax return data, reformat and
File                             post returns to the Return Transaction File, and do periodic
                                 file maintenance.
Credential                       An object that authoritatively binds an identity (and
                                 optionally, additional attributes) to a token possessed and
                                 controlled by a person.
Customer Account Data            An application that is scheduled to be phased in over several
Engine – Individual              years, processing increasingly more complex tax returns in
                                 stages, ultimately replacing the tape-based Master File
                                 systems the IRS now uses to process tax return data. The
                                 Customer Account Data Engine Release 4.2 was successfully
                                 deployed on January 19, 2009. Note: This will be replaced
                                 by the Customer Account Data Engine 2 in January 2012.
Customer Account Data            The technological foundation that will provide the IRS with
Engine 2                         the capability to manage its tax accounts in a way that is
                                 central to the achievement of the IRS modernization vision.
DB2 Database                     A relational model database server developed by IBM.
Electronic Tax Administration    Creates and maintains a national database to profile individual
Marketing Database               and business return filers to support marketing and
                                 communications for e-submissions programs.




                                                                                           Page 12
                               The Mainframe Databases Reviewed
                              Met Security Requirements; However,
                          Automated Security Scans Were Not Performed



             Term                                         Definition
Enterprise Life Cycle          In enterprise architecture, is the dynamic, iterative process of
                               changing the enterprise over time by incorporating new
                               business processes, new technology, and new capabilities, as
                               well as maintenance, disposition, and disposal of existing
                               elements of the enterprise.
Identification                 The process of verifying the identity of a user, process, or
                               device, usually as a prerequisite for granting access to
                               resources in an information technology system.
Least privilege                The security objective of granting users only those accesses
                               they need to perform their official duties.
Mainframe                      Powerful computers used primarily by corporate and
                               governmental organizations for critical applications, bulk data
                               processing such as census, industry and consumer statistics,
                               enterprise resource planning, and financial transaction
                               processing.
Objects                        A passive information system-related entity (e.g., devices,
                               files, records, tables, processes, programs, domains)
                               containing or receiving information. Access to an object
                               implies access to the information it contains.
Operating system               Software that runs on computers, manages computer hardware
                               resources, and provides common services for execution of
                               application software.
Patch                          An update to an operating system, application, or other
                               software issued specifically to correct particular problems with
                               the software.
Platform                       The hardware and software on a computer that allows software
                               to run. Typical platforms include a computer's architecture,
                               operating system, programming languages and related user
                               interface (run-time system libraries or graphical user
                               interface).

Privilege                      A right granted to an individual, a program, or a process.
Resource Access Control        An IBM security system that provides access control and
Facility                       auditing functionality for the z/OS and z/VM operating
                               systems.

                                                                                         Page 13
                              The Mainframe Databases Reviewed
                             Met Security Requirements; However,
                         Automated Security Scans Were Not Performed



            Term                                          Definition
Sensitive But Unclassified      A designation of information in the Federal Government that,
                                though unclassified, often requires strict controls over its
                                distribution.
Separation of duties            As a security principle, its primary objective is the prevention
                                of fraud and errors. This objective is achieved by
                                disseminating the tasks and associated privileges for a specific
                                business process among multiple users.
System-software                 The special software within the cryptographic boundary
                                (e.g., operating system, compilers, or utility programs)
                                designed for a specific computer system or family of
                                computer systems to facilitate the operation and maintenance
                                of the computer system, associated programs, and data.
Tax Return Database             Contains tax return source information for all electronically
                                filed tax returns.
Tax Professional Preparer Tax   A web-based application that will be used by approximately
Identification Number System    900,000 to 1.2 million tax return preparers. The application’s
                                main business goals are to facilitate taxpayer compliance and
                                ensure uniform and high ethical standards of conduct for tax
                                preparers.
Trusted Agent Federal           An automated management tool that maintains Federal
Information Security            Information Security Management Act of 2002 (44 U.S.C.
Management Act                  Sections§§ 3541 – 3549) reporting data for application
                                systems and their associated corrective actions.
User Permissions                The authorization that enables the user to access specific
                                resources on a computer (e.g., data files and applications) or
                                to network resources (e.g., printers and file servers).




                                                                                         Page 14
              The Mainframe Databases Reviewed
             Met Security Requirements; However,
         Automated Security Scans Were Not Performed



                                                Appendix VI

Management’s Response to the Draft Report




                                                       Page 15
     The Mainframe Databases Reviewed
    Met Security Requirements; However,
Automated Security Scans Were Not Performed




                                              Page 16
     The Mainframe Databases Reviewed
    Met Security Requirements; However,
Automated Security Scans Were Not Performed




                                              Page 17
